APPENDIX

APPENDIX
Decision of the Court of Appeals for the Eleventh Circuit,
United States v. Matthew Pryor,
Case No. 16-10806 (11th Cir. August 5, 2020) ......................................................... A-1
Judgment imposing sentence .................................................................................... A-2
Indictment .................................................................................................................. A-3

A-1

Case: 16-10806

Date Filed: 08/05/2020

Page: 1 of 9

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 16-10806
Non-Argument Calendar
________________________
D.C. Docket No. 1:15-cr-20404-BB-1

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
MATTHEW LEE PRYOR,
Defendant-Appellant.
________________________
Appeals from the United States District Court
for the Southern District of Florida
________________________
(August 5, 2020)
Before WILSON, MARTIN, and ANDERSON, Circuit Judges.
PER CURIAM:
Matthew Pryor appeals his total 600-month sentence for assaulting a federal
officer with a deadly weapon in violation of 18 U.S.C. § 111(a) and (b); possessing

Case: 16-10806

Date Filed: 08/05/2020

Page: 2 of 9

and discharging a firearm during a crime of violence in violation of 18 U.S.C.
§ 924(c)(1)(A)(iii); carjacking in violation of 18 U.S.C. § 2119(1); brandishing a
firearm during a crime of violence in violation of 18 U.S.C. § 924(c)(1)(A)(ii); and
possessing a firearm as a felon in violation of 18 U.S.C. §§ 922(g)(1) and
924(e)(1). Pryor raises two arguments on appeal. First, he says he should benefit
from Section 403 of the First Step Act of 2018, which changed the sentencing
scheme for a defendant’s second § 924(c) conviction. Second, he requests remand
to the district court for reconsideration of his career offender status in light of
Amendment 798 to the Sentencing Guidelines. After careful review, we affirm
Pryor’s convictions and sentence and deny his request for remand to the district
court.
I.
Pryor pled guilty to all charges against him in October 2015. Before
sentencing, Pryor’s presentence investigation report (“PSR”) determined he was a
“career offender” under the U.S. Sentencing Guidelines. The PSR based Pryor’s
career offender status on three prior “violent” felony convictions: two Florida
convictions for burglary of a dwelling and one Florida conviction for resisting an
officer with violence.
The PSR also found Pryor was subject to two mandatory consecutive
sentences for his two § 924(c) convictions under 18 U.S.C. § 924(c)(1)(A) and (C).

2

Case: 16-10806

Date Filed: 08/05/2020

Page: 3 of 9

The first § 924(c) conviction prescribed a mandatory consecutive sentence of at
least 10 years under § 924(c)(1)(A)(iii), and the second § 924(c) conviction
mandated a 25-year consecutive sentence under § 924(c)(1)(C)(i).
Pryor objected to his career offender designation. He argued that Johnson v.
United States, 576 U.S. ___, 135 S. Ct. 2551 (2015), which invalidated the residual
clause of the Armed Career Criminal Act, also applied to the similar residual
clause in the Sentencing Guidelines’ career offender provision at U.S.S.G.
§ 4B1.2(a)(2). Pryor argued his previous burglary convictions no longer qualified
as crimes of violence under § 4B1.2(a)(2), and thus he could not be adjudicated a
career offender. However, Pryor acknowledged that his claim was foreclosed by
United States v. Matchett, 802 F.3d 1185 (11th Cir. 2015), which held that Johnson
did not invalidate the career offender guideline’s residual clause. See id. at 1195–
96. Citing Matchett, the district court overruled Pryor’s objection to career
offender status.
Pryor was sentenced in January 2016. He received 180-month terms on both
the carjacking and assault charges and a 120-month term for the felon-inpossession charge, all running concurrently. He also received a mandatory
consecutive term of 120-months for the first § 924(c) charge of carrying a firearm
during a crime of violence, and another mandatory consecutive term of 300months for the second § 924(c) charge. Pryor’s total sentence was 600-months

3

Case: 16-10806

Date Filed: 08/05/2020

Page: 4 of 9

incarceration. The government timely appealed this judgment, and Pryor crossappealed. The government dismissed its cross-appeal in December 2018.
While Pryor’s appeal was pending, Congress passed the First Step Act of
2018, Pub. L. 115-391. As relevant here, the Act revised the § 924(c) sentencing
scheme. It changed the language of § 924(c)(1)(C) to impose a consecutive
mandatory 25-year sentence for a second § 924(c) conviction only if a prior
§ 924(c) conviction was already finalized. Pub. L. 115-391, § 403. In simple
terms, the Act did away with the 25-year consecutive sentence requirement for
defendants charged with a first and second § 924(c) violation in the same
prosecution. See id.
II.
We review de novo the interpretation of a criminal statute. United States v.
Hernandez, 906 F.3d 1367, 1370 (11th Cir. 2018). Likewise, we review de novo
the district court’s determination of career offender status under the Sentencing
Guidelines. United States v. Whitson, 597 F.3d 1218, 1220 (11th Cir. 2010) (per
curiam).
III.
A.
Pryor argues he should benefit from the First Step Act and be resentenced
without a 25-year mandatory minimum sentence for his second § 924(c) violation.

4

Case: 16-10806

Date Filed: 08/05/2020

Page: 5 of 9

The government responds that the First Step Act does not apply to Pryor because
he was sentenced by the district court almost three years before the Act was passed
and the Act is not retroactive.
At the time Pryor was sentenced in January 2016, 18 U.S.C. § 924(c)(1)(C)
provided for a 25-year mandatory minimum consecutive sentence if a defendant
had “a second or subsequent conviction under [§ 924(c)].” § 924(c)(1)(C) (2012).
This subsection imposed the mandatory minimum on a defendant who was
convicted of two § 924(c) violations in a single prosecution, as Pryor was. See
Deal v. United States, 508 U.S. 129, 132, 113 S. Ct. 1993, 1996 (1993).
In December 2018, Congress enacted the First Step Act, Pub. L. No. 115391. Section 403 of the Act is titled “Clarification of Section 924(c) of Title 18,
United States Code.” Section 403 amended 18 U.S.C. § 924(c)(1)(C) to impose
the 25-year minimum sentence only if “a violation of this subsection [§ 924(c)]
occurs after a prior conviction under this subsection has become final.” See
§ 403(a) (emphasis added); 18 U.S.C. § 924(c)(1)(C). Under this new language,
Pryor’s two simultaneous § 924(c) convictions would not warrant a 25-year
mandatory minimum consecutive sentence.
Section 403(b) of the First Step Act explains that the Act applies to “Pending
Cases” for “any offense that was committed before the date of the Act, if a
sentence for the offense has not been imposed as of such date of enactment.” Pub.

5

Case: 16-10806

Date Filed: 08/05/2020

Page: 6 of 9

L. No. 115-391, § 403(b). Pryor’s crime was committed before the Act was passed
in 2018. Pryor acknowledges that he was sentenced nearly three years before the
Act was passed. Nevertheless, he says the First Step Act applies to his sentence.
He primarily reasons that his sentence has not been “finally imposed” within the
meaning of Section 403(b), because his direct appeal is still pending and his
sentence has not yet been affirmed. Br. of Appellant at 9–10. The government
says the First Step Act does not apply to Pryor. The government maintains that a
sentence is “imposed” by the district court when it pronounces the defendant’s
term of imprisonment and enters his judgment of conviction.
Our Court recently resolved this issue in United States v. Smith, ___ F.3d.
___, 2020 WL 4355560 (11th Cir. July 30, 2020). We held that “a sentence is
‘imposed’ for purposes of § 403(b) [of the First Step Act] when it is pronounced in
the district court.” Id. at *12. Because Pryor’s sentence was imposed by the
district court before the passage of the First Step Act, he cannot receive First Step
Act relief. Therefore, we affirm his enhanced sentence under 18 U.S.C.
§ 924(c)(1)(C).
B.
Pryor also seeks a remand of his case for reconsideration of his career
offender status in light of Amendment 798 to the Sentencing Guidelines’ career

6

Case: 16-10806

Date Filed: 08/05/2020

Page: 7 of 9

offender provisions. See U.S.S.G. App. C, amend. 798 (Aug. 1, 2016). We
conclude that Pryor is not eligible for this relief.
Amendment 798 changed the career offender provisions of the Sentencing
Guidelines by removing burglary of a dwelling from Guidelines § 4B1.2(a)(2)’s
enumerated offenses and eliminating § 4B1.2(a)(2)’s residual clause defining a
“crime of violence.” See U.S.S.G. App. C, amend. 798. By eliminating the
residual clause of § 4B1.2(a)(2), Amendment 798 responded to the Supreme
Court’s ruling in Johnson, which held unconstitutional the Armed Career Criminal
Act’s identically worded residual clause. See U.S.S.G. App. C, amend. 798 (citing
Johnson, 135 S. Ct. at 2563).
Under Amendment 798, Pryor would no longer be considered a career
offender. His career offender status was based on at least two Florida burglary
convictions and one Florida conviction for resisting an officer with violence.
Without the burglary convictions as enumerated offenses and without the residual
clause, Pryor would have only one felony conviction to support his career offender
status. See U.S.S.G. § 4B1.1(a) (requiring “at least two prior felony convictions”
for career offender status).
However, Pryor cannot benefit from Amendment 798. This Court has held
that Amendment 798 does not apply retroactively to defendants sentenced before it
took effect. See United States v. Martin, 864 F.3d 1281, 1283 (11th Cir. 2017)

7

Case: 16-10806

Date Filed: 08/05/2020

Page: 8 of 9

(per curiam). We are bound by this precedent unless it is overruled by this Court
sitting en banc or by the Supreme Court. Smith v. GTE Corp., 236 F.3d 1292,
1300 n.8 (11th Cir. 2001). Pryor was sentenced in January 2016, and the
Amendment went into effect on August 1, 2016. As a result, Amendment 798 does
not change Pryor’s career offender status.
Pryor asks us to follow the First Circuit’s decision in United States v. Godin,
522 F.3d 133 (1st Cir. 2008) (per curiam). Godin remanded a case for
resentencing so the district court could consider the persuasive effect of a nonretroactive, newly enacted amendment to the Sentencing Guidelines. Id. at 134–
36. The district court in Godin did not consider this amendment at sentencing,
because the amendment had not yet been proposed. See id. at 134.
Pryor’s case stands in contrast to Godin. The district court in Pryor’s case
considered the proposed Amendment 798 and its persuasive effect on Pryor’s
career offender status. At sentencing, Pryor’s attorney told the court, “[T]he
Sentencing Commission just eliminated the residual clause from Career Offender,
and that’s going to go into effect on August 1st.” Counsel explicitly asked the
district court for “a variance . . . because [applying career offender status] conflicts
with the Sentencing Commission.” The government conceded that “[t]here is a
basis for the Court to consider a variance because of the actions of the Sentencing
Commission.” After considering these arguments, the district court sentenced

8

Case: 16-10806

Date Filed: 08/05/2020

Page: 9 of 9

Pryor as a career offender under the residual clause of Guidelines § 4B1.1. The
district court relied on this Court’s decision in Matchett, which held the residual
clause in the career offender guideline was not unconstitutionally vague. See 802
F.3d at 1196; see also Beckles v. United States, 580 U.S. ___, 137 S. Ct. 886, 897
(2017) (affirming Matchett’s holding).
The sentencing court already considered Pryor’s Amendment 798 arguments
and chose to sentence him as a career offender. Godin does not therefore support
remand in his case. Cf. United States v. Alexander, 553 F.3d 591, 593 (7th Cir.
2009) (denying remand under Godin because the defendant had the chance to
argue for a reduced sentence using a proposed guideline amendment, but he “failed
to draw the sentencing judge’s attention to the proposal”). We must affirm Pryor’s
designation as a career offender and therefore decline to remand his case.
AFFIRMED.

9

Case: 16-10806

Date Filed: 08/05/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303

David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

August 05, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 16-10806-EE
Case Style: USA v. Matthew Pryor
District Court Docket No: 1:15-cr-20404-BB-1
This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF")
system, unless exempted for good cause. Non-incarcerated pro se parties are permitted to use the ECF
system by registering for an account at www.pacer.gov. Information and training materials related to
electronic filing, are available at www.ca11.uscourts.gov. Enclosed is a copy of the court's decision filed today
in this appeal. Judgment has this day been entered pursuant to FRAP 36. The court's mandate will issue at a later
date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for filing a petition for
rehearing en banc is governed by 11th Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for inmate
filings, a petition for rehearing or for rehearing en banc is timely only if received in the clerk's office within the
time specified in the rules. Costs are governed by FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content
of a motion for attorney's fees and an objection thereto is governed by 11th Cir. R. 39-2 and 39-3.
Please note that a petition for rehearing en banc must include in the Certificate of Interested Persons a complete list
of all persons and entities listed on all certificates previously filed by any party in the appeal. See 11th Cir. R. 26.11. In addition, a copy of the opinion sought to be reheard must be included in any petition for rehearing or petition
for rehearing en banc. See 11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for time
spent on the appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme Court of
a petition for writ of certiorari (whichever is later) via the eVoucher system. Please contact the CJA Team at (404)
335-6167 or cja_evoucher@ca11.uscourts.gov for questions regarding CJA vouchers or the eVoucher system.
For questions concerning the issuance of the decision of this court, please call the number referenced in the
signature block below. For all other questions, please call Elora Jackson, EE at (404) 335-6173.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Djuanna H. Clark
Phone #: 404-335-6151
OPIN-1 Ntc of Issuance of Opinion

A-2

Case 1:15-cr-20404-BB Document 79 Entered on FLSD Docket 01/27/2016 Page 1 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 1 of 6

UNITED STATES DISTRICT COURT
Southern District of Florida
Miami Division
UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE
Case Number: 15-20404-CR-BLOOM-001
USM Number: 07928-104

v.
MATTHEW LEE PRYOR

Counsel For Defendant: Robert Berube, AFPD
Counsel For The United States: Ignacio Vazquez, AUSA
Court Reporter: Yvette Hernandez

The defendant pleaded guilty to counts 1, 2, 3, 4 and 5.
The defendant is adjudicated guilty of these offenses:
TITLE & SECTION

NATURE OF OFFENSE

18 U.S.C. § 111(a)(1) and
(b)
18 U.S.C. §
924(c)(1)(A)(iii)
18 U.S.C. § 2119(1)
18 U.S.C. §
924(c)(1)(A)(ii)
18 U.S.C. §§ 922(g)(1)
and 924(e)(1)

Assault on a federal officer with deadly and dangerous
weapons
Possession of a firearm in furtherance of a crime of
violence
Carjacking
Possession of a firearm in furtherance of a crime of
violence
Possession of a firearm by a convicted felon

OFFENSE
ENDED

COUNT

05/19/2015

1

05/19/2015

2

05/19/2015

3

05/19/2015

4

05/19/2015

5

The defendant is sentenced as provided in the following pages of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any
change of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed
by this judgment are fully paid. If ordered to pay restitution, the defendant must notify the court and United States
attorney of material changes in economic circumstances.

Date of Imposition of Sentence: 1/26/2015

____________________________________________
Beth Bloom
United States District Judge

Date: January 27, 2016

Case 1:15-cr-20404-BB Document 79 Entered on FLSD Docket 01/27/2016 Page 2 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 2 of 6

DEFENDANT: MATTHEW LEE PRYOR
CASE NUMBER: 15-20404-CR-BLOOM-001
IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of 600 months. This term consists of 180 months as to each of counts 1 and 3 and 120 months as to
count 5, to be served concurrently; and 120 months as to count 2 and 300 months as to count 4, both terms to run
consecutively with the terms of imprisonment imposed as to counts 1, 3 and 5.
The court makes the following recommendations to the Bureau of Prisons: That the defendant be
designated to a facility in the northeast part of the United States.
The defendant is remanded to the custody of the United States Marshal.
RETURN
I have executed this judgment as follows:

Defendant delivered on ________________________________________ to ________________________________________
at ________________________________________, with a certified copy of this judgment.

___________________________________________
UNITED STATES MARSHAL

___________________________________________
DEPUTY UNITED STATES MARSHAL

Case 1:15-cr-20404-BB Document 79 Entered on FLSD Docket 01/27/2016 Page 3 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 3 of 6

DEFENDANT: MATTHEW LEE PRYOR
CASE NUMBER: 15-20404-CR-BLOOM-001
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of 5 years. This term consists of 5
years as to counts 1-5 concurrently.
The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release
from the custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a
controlled substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and at least
two periodic drug tests thereafter, as determined by the court.
The defendant shall cooperate in the collection of DNA as directed by the probation officer.
The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon.
If this judgment imposes a fine or restitution, it is a condition of supervised release that the defendant pay in accordance
with the Schedule of Payments sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1. The defendant shall not leave the judicial district without the permission of the court or probation officer;
2. The defendant shall report to the probation officer and shall submit a truthful and complete written report within the first fifteen
days of each month;
3. The defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
4. The defendant shall support his or her dependents and meet other family responsibilities;
5. The defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or
other acceptable reasons;
6. The defendant shall notify the probation officer at least ten days prior to any change in residence or employment;
7. The defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;
8. The defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
9. The defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted
of a felony, unless granted permission to do so by the probation officer;
10.The defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation
of any contraband observed in plain view of the probation officer;
11.The defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement
officer;
12.The defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
permission of the court; and
13.As directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant’s
criminal record or personal history or characteristics and shall permit the probation officer to make such notifications and to
confirm the defendant’s compliance with such notification requirement.

Case 1:15-cr-20404-BB Document 79 Entered on FLSD Docket 01/27/2016 Page 4 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 4 of 6

DEFENDANT: MATTHEW LEE PRYOR
CASE NUMBER: 15-20404-CR-BLOOM-001
SPECIAL CONDITIONS OF SUPERVISION
Employment Requirement - The defendant shall maintain full-time, legitimate employment and not be
unemployed for a term of more than 30 days unless excused for schooling, training or other acceptable reasons.
Further, the defendant shall provide documentation including, but not limited to pay stubs, contractual
agreements, W-2 Wage and Earnings Statements, and other documentation requested by the U.S. Probation
Officer.
Mental Health Treatment - The defendant shall participate in an approved inpatient/outpatient mental health
treatment program. The defendant will contribute to the costs of services rendered (co-payment) based on ability
to pay or availability of third party payment.
Permissible Search - The defendant shall submit to a search of his/her person or property conducted in a
reasonable manner and at a reasonable time by the U.S. Probation Officer.
Substance Abuse Treatment - The defendant shall participate in an approved treatment program for drug and/or
alcohol abuse and abide by all supplemental conditions of treatment. Participation may include
inpatient/outpatient treatment. The defendant will contribute to the costs of services rendered (co-payment) based
on ability to pay or availability of third party payment.

Case 1:15-cr-20404-BB Document 79 Entered on FLSD Docket 01/27/2016 Page 5 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 5 of 6

DEFENDANT: MATTHEW LEE PRYOR
CASE NUMBER: 15-20404-CR-BLOOM-001
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
TOTALS

Assessment
$500.00

Fine
$0.00

Restitution
$0.00

The determination of restitution is deferred until FRIDAY, MARCH 25, 2016 at 11:00 a.m. in Miami, 400
North Miami Avenue, Courtroom 10-2. An Amended Judgment in a Criminal Case (AO 245C) will be
entered after such determination.
The defendant must make restitution (including community restitution) to the attached list of payees in the
amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority order or percentage payment column below. However,
pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid before the United States is paid.
NAME OF PAYEE
TBD

TOTAL
LOSS*
TBD

RESTITUTION
ORDERED
TBD

PRIORITY OR
PERCENTAGE
TBD

Restitution with Imprisonment - It is further ordered that the defendant shall pay restitution in the
amount of AMOUNT DEFERRED. During the period of incarceration, payment shall be made as follows:
(1) if the defendant earns wages in a Federal Prison Industries (UNICOR) job, then the defendant must
pay 50% of wages earned toward the financial obligations imposed by this Judgment in a Criminal Case;
(2) if the defendant does not work in a UNICOR job, then the defendant must pay a minimum of $25.00
per quarter toward the financial obligations imposed in this order. Upon release of incarceration, the
defendant shall pay restitution at the rate of 10% of monthly gross earnings, until such time as the court
may alter that payment schedule in the interests of justice. The U.S. Bureau of Prisons, U.S. Probation
Office and U.S. Attorney’s Office shall monitor the payment of restitution and report to the court any
material change in the defendant’s ability to pay. These payments do not preclude the government from
using other assets or income of the defendant to satisfy the restitution obligations.
* Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for
offenses committed on or after September 13, 1994, but before April 23, 1996.
**Assessment due immediately unless otherwise ordered by the Court.

Case 1:15-cr-20404-BB Document 79 Entered on FLSD Docket 01/27/2016 Page 6 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 6 of 6

DEFENDANT: MATTHEW LEE PRYOR
CASE NUMBER: 15-20404-CR-BLOOM-001
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as
follows:
A. Lump sum payment of $500.00 due immediately.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal
monetary penalties is due during imprisonment. All criminal monetary penalties, except those payments made
through the Federal Bureau of Prisons’ Inmate Financial Responsibility Program, are made to the clerk of the
court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties
imposed.
This assessment/restitution is payable to the CLERK, UNITED STATES COURTS and is to be addressed to:
U.S. CLERK'S OFFICE
ATTN: FINANCIAL SECTION
400 NORTH MIAMI AVENUE, ROOM 08N09
MIAMI, FLORIDA 33128-7716
The assessment/restitution is payable immediately. The U.S. Bureau of Prisons, U.S. Probation Office and the
U.S. Attorney's Office are responsible for the enforcement of this order.
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.
CASE NUMBER
DEFENDANT AND CO-DEFENDANT NAMES
(INCLUDING DEFENDANT NUMBER)

TOTAL AMOUNT

JOINT AND SEVERAL
AMOUNT

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest,
(4) fine principal, (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of
prosecution and court costs.

A-3

Case 1:15-cr-20404-BB Document 5 Entered on FLSD Docket 06/04/2015 Page 1 of 6TB
Jun 4, 2015

UN ITED STA TES D ISTR ICT C O U RT
SOUTHERN DISTRICT OF FLORIDA

15-20404-CR-BLOOM/VALLE
C A SE N O .
18 U.S.C.5 111(a)(1)and(b)
18U.S.C.5211941)
18U.S.C.j924(c)(1)(A)(ii)and (iii)
18U.S.C.j922(g)(1)
18U.S.C.j924(e)(1)
18U.S.C.j924(d)(1)
18U.S.C.j982(a)(5)
U NITED STA TES O F A M ER ICA
V.

M A TTH EW LEE PR Y O R ,
Defendant.
/

IN DICT M EN T
The Grand Jury charges that:
C O U NT I

On oraboutM ay 19,2015,in M iam i-Dade County,in the Southern Distrid ofFlorida,
the defendant,
M A TTH E W LEE PR Y O R ,

did forcibly assault,resist,oppose,impede,intim idate,and interfere with tûD .B .,''an offcer of

the United Statesand ofan agency in a branch ofthe United States Governm eptdesignated in
Title l8,United States Code,Section l114,thatis,a SpecialDeputy United States M arshal,
w hile çtD .B.''w as engaged in and on accountofthe perform ance of his ofticialduties, and in the
com m ission of the offense did use a deadly and dangerous w eapon, in violation of Title 18,

UnitedStatesCode,Sedions111(a)(1)and(b).

Case 1:15-cr-20404-BB Document 5 Entered on FLSD Docket 06/04/2015 Page 2 of 6

C O UN T Z
On or aboutM ay 19,2015,in M iam i-D ade County,in the Southern D istrict of Florida,
the defendant,
M A TTH EW LEE PR Y O R ,

did knowingly possessa fireann in furtherance ofa crime ofviolence,an offense forwhich the
defendant m ay be prosecuted in a court of the U nited States, that is, a violation of Title 18,

United States Code,Section 111,ascharged in Count1 ofthislndictm ent,in violation ofTitle

18,UnitedStatesCode,Section924(c)(1)(A).

Pursuantto Title 18,United StatesCode,Section 924(c)(1)(A)(iii),itisfurtheralleged
thatthe firearm w as discharged.
CO UN T J

On oraboutM ay 19.2015,in M iam i-Dade County,in the Southern DistrictofFlorida,
the defendant,

M ATTHEW LEE PRYOR
with the intentto cause death and seriousbodily harm,did take a m otor vehicle thathad been
transported, shipped,and received in interstate and foreign com m erce, that is, a 2011 N issan

Rogue,from the person and presence ofanother,by force,and violence,and by intim idation,in

violationofTitle 18,UnitedStatesCode,Section2119(1).
O VNT 4
On oraboutM ay 19,20l5,in M iam i-Dade County,in the Southern DistrictofFlorida,
the defendant,
M A TTH EW LEE PR YO R,

did knowingly possess a fireann in furtherance of a crim e of violence,an offense for w hich the

Case 1:15-cr-20404-BB Document 5 Entered on FLSD Docket 06/04/2015 Page 3 of 6

defendantmay be prosecuted in a courtof the United States,that is,a violation of Title 18,

United StatesCode,Section 2119(1),ascharged in Count3 ofthislndictment,in violation of
Title 18,UnitedStatesCode,Section924(c)(1)(A).

Pursuantto Title 18,United StatesCode,Section 924(c)(1)(A)(ii),itisfurtheralleged
thatthetsrearm wasbrandished.
CO UN T S

On oraboutM ay 19,2015,in M iami-Dade County,in the Southern DistrictofFlorida,
the defendant,
M A TT H EW LE E PRY O R ,

having been previously convicted ofa crim e punishableby imprisom nentfora tenn exceeding
oneyear,did knowingly possessa tirearm and amm unition in and affeding interstateand foreign

commerce,inviolationof-ritle 18,United StatesCode,Sedions922(g)(1)and924(e)(1).
FO R FEITUR E A LLEG A TIO N S

The allegations of this lndictm ent are re-alleged and by this refkrence fully
incorporated herein for the purpose of alleging forfeiture to the United States of Am erica of
certain property in which thedefkndant,M ATTHEW LEE PRYOR ,hasan interest.
Upon conviction ofa violation ofTitle 18,United StatesCode,Sedion 2119,the
defendantshallfbrfeitto the United Statesany property,realorpersonal,which representsoris
traceable to the gross proceeds obtained,directly or indirectly,as a result of such violation,

pursuanttoTitle 18,United StatesCode,Section 982(a)(5).
Uponeonvictionofaviolation ofTitle 18,United StatesCode,Section 922(g)(1)
or924,orany violation ofany othercriminal1aw ofthe United States,thedefkndantshallforfeit
to the U nited States any firearm or am m unition involved in or used in the com m ission of such

Case 1:15-cr-20404-BB Document 5 Entered on FLSD Docket 06/04/2015 Page 4 of 6

violation,pursuanttoTitle 18,United StatesCode,Sedion924(d)(1).
Allpursuantto Title 18 United States Code,Sections924(d)(1)and 982(a)(5),andthe
proceduressetforth in Title 21,U nited States Code,Section 853.

A TRU E BILL

FoRcpERsok

1è
-

JA .V,cr/myz
w IFRED O A .FERRER
UNITED STATES ATTORNEY

J.

EZ JR .

ASSISTANTUNITEDSIAI-ESATTORNEY

4

UNITED STATES DISTRICT COURT
Case 1:15-cr-20404-BB Document
5 Entered
onOF
FLSD
Docket
06/04/2015 Page 5 of 6
SOUTHERN
DISTRICT
FLORI
DA

CASE NO .

UNITED STATES OF AM ERICA
5rS.

CERTIFICATE O F TRIA L ATTO RNEY*
M ATHEW LEE PRYOR,
Defendant.
/

Superseding Case lnform ation:

CourtDivision'
.(selcctone)
M iam i
FTL

New Defendantts)

Key W est
W PB

FTP

N um berofNew Defendants
Totalnumberofcounts

Yes

No

X

Ido hereby certify that:

Ihave carefully consideredtheallegationsofthe indictm ent,thenum berofdefendants,thenumberof
probablew itnessesand the legalcomplexitiesofthe Indictment/lnformation attached hereto.

Iam awarethattheinfonnation supplied on thisstatemeqtwillberelied upon by theJudgesofthis

Courtin setting theircalendarsand scheduling crim inaltrlalsunderthem andate oftheSpeedy Trial
Act,Title 28 U.S.C.Section 316l.

lnterpreter:

(YesorNo)

No

LlstIanguageand/ordialect
4.

Thiscase willtake

l0

daysforthe partiesto tly.

Please check appropriate category and type ofoffense listed below .
(Checkonl
yone)

(Checkonlyone)

I
11
III
IV
V

0 to 5 days
6 to l0 days
11to 20 days
21to 60 days
6ldaysand over

6:

Hasthiscasebeenpreviously filed inthisDistrictCourt? (YesorNo)

Ifyes:
Judge:

Petty
M inor
M isdem .
Felony

X

,
.

Case No.

(Attachcopyofdispositiveordel)
Hasacomplaintbeenfiledinthlsmatter?
Ifyes:
M agistrateCaseNo.
Related M iscellaneousnum bers:

(YesorNo)

No

Yes

15-1q*-2691-o'sullivan

Defendantts)infederalcustodyasof
Defendantts)in statycustodyasof
ennessee
Rule 20 from the Dlstrictof
Isthisapotentialdeathpenaltycase?(YesorNo)

No

Doesthiscase originate from a matterpending in theNorthern Region ofthe U.S. Attorney'sOffice
priorto October14,2003? Yes
No X
8.

Dvesthiscaseoriginatefrom amatterpending in the CentralRegion ofthe U.S.Attorney'sOffice
prlorto Septem ber l,2007?

Yes

No X

e'
.,.

A

?penalty Sheetts)attached

O .v A Z
z,JR .
TANT UN ITED STATES ATTORNEY
FLA BA R NO.16275

Ruv4/&0s

Case 1:15-cr-20404-BB Document 5 Entered on FLSD Docket 06/04/2015 Page 6 of 6

UNITED STATES DISTRICT COURT
SO U TH ER N DISTRIC T O F FLO R IDA
PEN A LTY SH EET
D efendant'sN am e: M A TTH EW LEE PR Y O R
C ase N o:

Count#:1
Assaulton aFederalOfticerw ith Deadly and DangerousW eapon

Title1%,UnitedStatesCode,Sedion 111(a)(1)and(b)
*M ax.Penalty:

20 Years'Im prisonm ent

Counts#:2 and 4

Firearm Possession in FurtheranceOfA Crime OfViolence

Title 18,UnitedStatesCode,Section924(c)(1)(A)(ii)and(iii)
*M ax.Penalty:

Life lm prisonm ent

Count#:3

Carjaeking
Title18,UnitedStatesCode,Sedion2119(1)
*M ax.Penalty:

15 Years'lm prisonm ent

Count#;5
Firearm Possession by a Convicted Felon

Title 18,UnitedStatesCode,Sections922(g)and924(e)(1)
*M ax.Penalty:

Life lm prisonm ent

WR efers only to possible term ofincarceration,does not include possible fines,restitution,
specialassessm ents,parole term s,or forfeituresthatm ay be applicable.

